                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM


                                                                                  11          Page 1 of I



          The National Science Foundation, Office of Inspector General, conducted a review of fiscal year
          2000 through fiscal year 2003 closed awards that involved substantial participant support funds.
                                                           '
          As part of this review, we requested the grantee provide financial information and supporting
          documentation on the NSF award.2

          The documentation provided by the grantee revealed several questionable expenses and a lack of
          documentation, which required additional clarification.

          The Grantee advised that they were unable to locate prior written approval for rebudgeting
          participant costs funds. The grantee agreed to reimburse N S F . ~ The grantee advised that they
          have taken steps to ensure this does not reoccur.

          Accordingly, this case is closed.




          1
              Footnote Redacted
              Footnote Redacted
              Footnote Redacted




I'
NSF OIG Form 2 (1 1/02)
